                                                   OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 4) Version 4.0
                Reporting Entity: Amtrak ‐ OIG
              Month Ending Date: 10/31/2009

                                                   Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau             Recovery Act TAFS          Obligation Type   US Indicator        State Code       Total Obligations   Total Gross 
                                                                                                      (ONLY for grants                         Outlays
                                                                                                      and cooperative 
No.                                                                                                     agreements)
      Amtrak ‐ OIG                (69‐0724 2009 \ 2013) Amtrak ‐       Other            Y ‐ US                               $185,781         $164,501 
                                  OIG ‐ Recovery Act
  1
  2
  3
  4
  5
  6
  7
  8
  9
 10

                                        Non-Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau          Non‐Recovery Act TAFS          Total FY 2009    Total FY 2009     Total FY 2010       Total FY 2010 
No.                                                                  Obligations     Gross Outlays      Obligations        Gross Outlays
  1 Amtrak ‐ OIG                  Amtrak - OIG                            $228,694         $228,465            $46,732             $44,250
  2
  3
  4
  5
  6
  7
  8
  9
 10




                                                                                              AmtrakOIGRecoveryActFinancialandActivityRPTOct2009110609.xls
